            versight

            eport

         REPORT ON QUALITY CONTROL REVIEW OF
                GRANT THORNTON LLP, FOR
          OFFICE OF MANAGEMENT AND BUDGET
           CIRCULAR NO. A-133 AUDIT REPORT OF
        CONCURRENT TECHNOLOGIES CORPORATION
             FISCAL YEAR ENDED JUNE 30, 1998

Report Number D-2001-6-002           February 23, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of the audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym

ACO                  Administrative Contracting Officer
CTC                  Concurrent Technologies Corporation
DCAA                 Defense Contract Audit Agency
GAS                  Government Auditing Standards
OMB                  Office of Management and Budget
                                                                   February 23, 2001



Executive Director and Treasurer
Concurrent Technologies Corporation

Partner-in-Charge
Grant Thornton, LLP

Director
Defense Contract Management Agency


SUBJECT: Report on Quality Control Review of Grant Thornton LLP,
         for Office of Management and Budget Circular A-133
         Audit Report of Concurrent Technologies Corporation,
         Fiscal Year Ended June 30, 1998
         Report No. D2001-6-002 (Project No. D2000-OA-0150)

        We are providing this report for your review and comment. The firm of Grant
Thornton, LLP (Grant Thornton), performed the single audit for the Concurrent
Technologies Corporation (CTC), an independent non-profit organization based in
Johnstown, Pennsylvania. Grant Thornton partially relied on the audit work of
Wessel & Company and the Defense Contract Audit Agency (DCAA) in completing its
audit. The audit is required by Office of Management and Budget (OMB) Circular
A-133, "Audits of States, Local Governments, and Non-Profit Organizations"
(hereafter called Circular A-133). For the fiscal year ended June 30, 1998, CTC
expended approximately $92.8 million against Federal awards, representing
$90.3 million for the DoD and $2.5 million for other Federal agencies.

Quality Control Review Objective. As the cognizant agency for CTC, the Office of
Inspector General, DoD, performed a quality control review of the FY 1998 audit to
determine whether the audit report that CTC submitted to the Single Audit
Clearinghouse met the applicable reporting standards and whether Grant Thornton
conducted the audit in accordance with applicable standards and Circular A-133. See
Appendix A for a discussion of the scope and single audit requirements.

Review Results. Grant Thornton generally complied with applicable auditing standards
and the requirements contained in Circular A-133 and its related Compliance
Supplement for the Research and Development program. However, we identified

                                          1
deficiencies relating to reporting and documentation requirements. As a result of our
review, Grant Thornton addressed these deficiencies (finding A). In addition, CTC
charged unallowable audit costs to the Federal Government for audit services (see
finding B). Moreover, CTC did not comply with Circular A-133 requirements because
the original reporting package did not include a Summary Schedule of Prior Audit
Findings (see finding C).

Finding A. Performance of the Fiscal Year 1998 Single Audit. Grant Thornton
working papers supporting the audit of internal control over compliance and the audit of
compliance with major program requirements did not meet GAS documentation
requirements. In addition, the auditor's report on the financial statements did not
include the required reference to GAS, and the Schedule of Findings and Questioned
Costs did not include all audit findings.

        Working Paper Documentation. The working papers did not clearly document
the procedures performed to accomplish the objectives of Circular A-133 requirements
for an audit of major Federal programs. The lack of clear documentation occurred in
part because the auditors relied on work performed in the financial statement audit as a
basis for fulfilling the requirements of the Federal program audit. However, they did
not prepare working papers to draw the relationship between the procedures performed
on the financial statement audit and Circular A-133 objectives being tested.

Specifically the working papers did not clearly document:

       •   the auditor's determination of applicable and material compliance
           requirements;
       •   the auditor's understanding of internal control over certain applicable
           compliance requirements; and,
       •   the testing of internal controls and compliance specifically for the following
           compliance requirements: equipment and real property management,
           procurement and suspension and debarment, reporting, subrecipient
           monitoring, and special tests and provisions.

Because the working papers did not contain sufficient documentation to demonstrate
compliance with Circular A-133 requirements, we needed significant oral explanations
from the auditors. The explanations were needed in order to determine that the audit of
internal control over compliance with requirements provided a sound basis for the
compliance review and that the extent of testing supported the unqualified opinion on
compliance with requirements of the Research and Development program.




                                            2
GAS requires that the working papers contain enough information about the work
performed and the documents examined so that an experienced auditor would be able to
examine the same documents and understand the auditor's judgments and conclusions.

As a result of our discussions with the auditors, Grant Thornton prepared supplemental
working papers to support the fact that they adequately planned and performed the audit
of Federal programs. Based on our review of the supplemental working papers and
further discussions with the Grant Thornton auditor, we concluded that the audit
generally met Circular A-133 objectives. In addition, Grant Thornton has taken steps
to address these deficiencies in future audits through training that will focus on
performing procedures to meet Circular A-133 requirements for the audit of internal
control over compliance and preparation of working papers that meet GAS
documentation requirements.

        Reporting Requirements. Grant Thornton did not report all audit findings for
Federal awards as required by Circular A-133. Both the Grant Thornton and DCAA
audit identified noncompliances with the Allowable Cost/Cost Principles requirement
that were not included in the audit report. These issues should have been included in
the Schedule of Findings and Questioned Costs and disclosed in the reports on internal
control and compliance over major programs. In addition, the audit report on the
financial statements did not contain the statement that the audit was conducted in
accordance with GAS.

        Reporting Audit Findings. Grant Thornton did not report documented findings
related to the Allowable Cost/Cost Principles compliance requirement. Grant Thornton
and DCAA audits disclosed approximately $70,000 of questioned costs related to the
Allowable Cost/Cost Principles compliance requirement. Circular A-133 requires the
auditor to report known or likely questioned costs greater than $10,000 for a
compliance requirement for a major program. The costs questioned were indirect
costs, and CTC subsequently removed these costs from its indirect cost rate submission.
However, all the costs were questioned as unallowable under several different criteria
in OMB Circular A-122, "Cost Principles for Non-Profit Organizations." Grant
Thornton stated that they did not report the questioned costs because CTC voluntarily
removed them from its indirect cost rate submission.

Circular A-133 requires the auditor to report in the Schedule of Findings and
Questioned Costs all reportable conditions in the internal control over major programs
and material noncompliances. In addition, known or likely questioned costs greater
than $10,000 for a type of compliance requirement should be reported. Awarding
agencies rely on Circular A-133 audit reports to help them monitor and manage their
programs. Although CTC corrected the noncompliances by removing the questioned
costs from their indirect cost rate submission, Circular A-133 still requires them to be

                                            3
reported. This information is needed because the Circular A-133 risk-based approach
to planning future audits considers several factors including prior audit findings at both
the program-level and organization-level for determining the extent of future audit
coverage. Failure to disclose these audit findings affects the adequate planning of
future audits.

        Auditor's Report on the Financial Statements. The Independent Auditor's
Report on the financial statements did not contain the statement that the audit was
conducted in accordance with GAS as required by Circular A-133. The Standards and
American Institute of Certified Public Accountants guidance require that the audit
report specifically state that the audit was made according to GAS.

As a result of discussions held with Grant Thornton, they revised the Schedule of
Findings and Questioned Costs to include all questioned costs disclosed in the FY 1998
audit and revised the auditor's report on the financial statements to include the required
language.

Recommendations

A.1. We recommend that Grant Thornton, LLP, expedite providing the revision of the
Office of Management and Budget Circular A-133 audit report to Concurrent
Technologies Corporation.

A.2. We recommend that the Executive Director and Treasurer, Concurrent
Technologies Corporation, submit a copy of the revised FY 1998 Office of
Management and Budget Circular A-133 audit package to the Federal Audit
Clearinghouse.

Finding B. Audit Service Costs. CTC charged the Government for unallowable audit
costs because it:

       •   charged Federal awards for $18,224 of expressly unallowable audit costs
           related to the potential acquisition of another company, and,
       •   charged Federal awards for $48,600 for Grant Thornton's audit of the
           FY 1998 indirect cost rate submission audit.


       Accounting Costs for Acquisition Activity. CTC did not remove expressly
unallowable costs for accounting services related to acquisition activity from its
FY 1998 certified indirect cost rate submission.



                                            4
During calendar year 1998, CTC was pursuing the possible acquisition of another
company. CTC incurred $18,224 of costs for audit services provided by Grant
Thornton associated with the planned acquisition. These costs are expressly
unallowable under Circular A-122 criteria and should not have been included in the
CTC FY 1998 certified indirect cost rate submission. DCAA did not question the costs
in their audit because the supporting documentation for Grant Thornton's audit service
costs did not provide details of the specific services rendered. However, Grant
Thornton was also auditing CTC costs for allowability. Grant Thornton should have
advised CTC to remove these costs since Grant Thornton was aware of the services
performed and should have been knowledgeable about the allowability criteria in
Circular A-122.

The Government must be reimbursed for this unallowable cost, and the reimbursement
should include assessed penalties and interest as required by Federal Acquisition
Regulation 42.709.

We discussed this issue with the CTC Executive Director and Treasurer who agreed
that the costs were related to unallowable activity and should have been removed from
the CTC certified claim. We were advised that since the CTC FY 1998 indirect cost
rates and carryforward amounts have already been finalized, CTC will adjust the
FY 2000 indirect cost rate submission to remedy the situation.

        Audit of Indirect Cost Rate Submission. CTC paid Grant Thornton $48,600
to audit their FY 1998 indirect cost rate submission. These audit services were in
addition to Grant Thornton's engagement to perform the OMB Circular A-133 audit.
These audits were arranged for under separate engagement letters. The Government
should not have been charged for the audit of the indirect cost rate submission because:

       •   the audit was not needed to meet Circular A-133 requirements; and,
       •   the services contracted for were unnecessary considering the CTC financial
           internal controls, the absence of prior significant allowable cost issues, and
           the ability of DCAA to perform this audit as the DoD cognizant contract
           audit organization.

        Circular A-133 requirements. Circular A-133 requires an audit of the
financial statements and compliance requirements applicable to major Federal
programs. One of the compliance requirements, Allowable Cost/Cost Principles,
addresses allowability of direct and indirect costs. The audit procedures performed by
Grant Thornton on the allowability of FY 1998 incurred indirect costs were not
required due to the nature of the CTC indirect cost rates.



                                            5
CTC charges the Government for indirect costs using a fixed rate. These rates were
negotiated by the Administrative Contracting Officer (ACO) based on a DCAA audit of
the proposed rates. Since the basis for the fixed rates for FY 1998 was previously
tested, no additional testing of the allowability of costs was needed to fulfill Circular
A-133 requirements.

        CTC Management of Allowable Costs. Circular A-122 establishes the
principles for determining costs of grants, contracts, and other agreements with non-
profit organizations. The principles are designed to provide that the Federal
Government bears its fair share of allowable costs. One of the factors affecting
allowability of cost is that the cost must be reasonable. It is not reasonable for the
Government to pay for audit services that duplicate the work performed by the CTC
accounting department and that are available at no cost from the DCAA.

CTC is required to prepare and submit a certified submission of its actual indirect cost
rates on an annual basis to the Defense Contract Management Agency. The purpose of
this submission is for the ACO to establish a carryforward adjustment for the
negotiation of fixed indirect rates for future periods. CTC management is responsible
for ensuring that unallowable costs are not included in their certified indirect cost rate
submission. CTC has policies and procedures that designate responsibility to
accounting and procurement personnel for the appropriate treatment of unallowable
costs. The cost for the CTC departments to perform this work is recovered from the
Federal Government through CTC indirect cost rates. Federal Acquisition Regulation
Subpart 42 and DoD Directives direct the ACO to request audits of the indirect cost
rate submission from the DCAA. CTC can, of course, contract for audit services to
meet its own needs. However, contracting with Grant Thornton to identify unallowable
costs in its submission prior to certification, in effect, duplicates the cost of the CTC
accounting department and the DCAA audit services requested by the ACO. This cost
should not be passed on to the Government.

       CTC Comments. CTC does not concur with our position. The Executive
Director and Treasurer advised us of the following:

       •   CTC stated that an oral agreement was reached at a meeting held in 1994.
           We were advised that both the ACO and DCAA agreed to Grant Thornton's
           involvement in the incurred cost audit and to the allowability of Grant
           Thornton's audit costs.

       •   Grant Thornton's involvement in the incurred cost was an integral aspect of
           the coordinated audit approach, which represents an efficient approach for
           the audit organizations and CTC.


                                            6
       •   CTC management felt that they needed "the additional comfort" of having
           Grant Thornton review their indirect cost rate submission before it was
           certified and submitted to the Government.

       Evaluation of CTC Response. We attempted to confirm the oral agreement
with both DCAA and the ACO. Neither organization recalled the agreement referenced
by CTC. CTC provided us with an agenda and the CTC minutes from the January
meeting. However, it appears that the discussion concerning an independent public
accounting firm related to the Circular A-133 audit, not to the indirect cost rate
submission audit.

Grant Thornton's involvement in the coordinated audit did not require them to be
engaged to perform an audit of the indirect cost rates. Grant Thornton planning memos
indicate that they performed an audit of incurred costs as part of their financial
statement (Circular A-133) audit. This effort was billed and paid for under the single
audit engagement.

In addition, it is not reasonable for the Government to pay additional costs for CTC to
ensure that its indirect cost rate submission is free from unallowable costs before
management certifies it. The Government pays for the screening of unallowable costs
by the CTC accounting and procurement personnel through CTC indirect rates and pays
for DCAA audit of the indirect cost rate submission as well.

We believe that the coordinated audit process would be enhanced if Inspector General,
DoD, auditors were included in CTC audit coordination meetings. Although CTC is
responsible for arranging the Circular A-133 audit, the Inspector General, DoD, is
responsible for coordinating audit work and reporting responsibilities among auditors to
achieve the most cost-effective audit.

Recommendations

B.1. We recommend that the Executive Director and Treasurer, Concurrent
Technologies Corporation:

      a. Reimburse the Government for all costs associated with the Grant
Thornton audit of the FY 1998 indirect cost rate submission.

       b. Reimburse the Government for all costs related to acquisition activity
that was included in its FY 1998 certified indirect cost rate submission including any
assessed penalties and interest.



                                            7
      c. Notify the Inspector General, DoD, of future Office of Management
and Budget Circular A-133 coordination meetings.

B.2. We recommend that the Defense Contract Management Agency Administrative
Contracting Officer cognizant over the negotiation of the Concurrent Technologies
Corporation indirect cost rates:

        a. Request that Concurrent Technologies Corporation reimburse the
Government for the amount of unallowable acquisition costs included in the Concurrent
Technologies Corporation FY 1998 certified indirect cost rate submission including
penalties and interest as appropriate;

      b. Request that Concurrent Technologies Corporation reimburse the
Government for all costs associated with the Grant Thornton audit of the Concurrent
Technologies Corporation FY 1998 indirect cost rate submission; and,

       c. Advise Concurrent Technologies Corporation that the Government will
disallow outside accounting firm costs for audits of the Concurrent Technologies
Corporation indirect cost rate submission for future years.

Finding C. Circular A-133 Reporting Package. CTC did not submit a complete
reporting package as required by Circular A-133. The package did not include a
summary schedule of prior audit findings.

        Summary Schedule of Prior Audit Findings. The FY 1998 Circular A-133
audit report did not include the required schedule addressing the prior audit finding
from the FY 1997 OMB Circular A-133 audit. The FY 1997 audit reported a finding
of non-compliance with the Allowable Costs/Cost Principles requirement. The finding,
disclosed by DCAA, related to approximately $40,000 of costs unallowable under
OMB Circular A-122 cost principles. Circular A-133 requires the auditee to prepare a
summary schedule of prior audit findings as part of the reporting package.

As a result of our review, CTC prepared the required schedule as part of the revised
reporting package.

Recommendation

C. We recommend that the Executive Director, Concurrent Technologies Corporation,
submit a copy of the revised FY 1998 Office of Management and Budget Circular
A-133 audit package, including the Summary Schedule of Prior Audit Findings, to the
Federal Audit Clearinghouse.


                                           8
Appendix A. Quality Control Review Process

Scope and Methodology


    We conducted a quality control review of the Grant Thornton, LLP, audit of
    Concurrent Technologies Corporation for the fiscal year ended June 30, 1998,
    and the resulting reporting submission to the Single Audit Clearinghouse dated
    November 6, 1998. We performed our review using the 1999 edition of the
    “Uniform Quality Control Guide for the A-133 Audits” (the Guide). The Guide
    applies to any single audit that is subject to the requirements of OMB Circular
    A-133, revised June 24, 1997. The Guide is the approved checklist of the
    President’s Council on Integrity and Efficiency for performing the quality
    control review procedures. We reviewed the audit as required by Circular
    A-133, GAS issued by the Comptroller General of the United States, and
    generally accepted auditing standards issued by the American Institute of
    Certified Public Accountants. Our review was conducted from March 2000
    through January 2001 and covered areas related to the financial statements and
    the one major program, research and development. As the cognizant audit
    agency for CTC, we focused our review on the following qualitative aspects of
    the single audit:

       •   Qualifications of auditors
       •   Independence
       •   Due professional care
       •   Quality control
       •   Planning and supervision
       •   Internal controls and compliance testing
       •   Schedule of Expenditures of Federal Awards
       •   Schedule of Findings and Questioned Costs
       •   Data Collection Form

    In conducting the review, we reviewed all working papers prepared by the
    auditor, discussed the audit with the auditor and CTC cognizant personnel, and
    retested selected audit procedures. We also considered the DCAA and Wessel
    and Co. audits.




                                       10
Prior Quality Control Reviews

    Between January 1996 and January 2000, we performed one quality control
    review of a Circular A-133 audit performed by Grant Thornton, LLP. We did
    not identify any findings.

Single Audit Requirements

    Circular A-133 establishes policies to guide implementation of the Single Audit
    Act 1996 (Public Law 98-502) amendments and provides an administrative
    foundation for uniform audit requirements for non-Federal entities that
    administer Federal awards. In addition, Circular A-133 serves to ensure that
    Federal departments and agencies rely on and use the audit work to the
    maximum extent practicable. To meet the intent of the law and Circular A-133,
    a complete reporting package on each single audit is submitted to the Single
    Audit Clearinghouse from the auditee (non-Federal entity) that includes the
    following:

       •   Data collection form certified by the auditee that the audit was completed
           in accordance with the OMB Circular A-133;

       •   Financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   Report on internal controls over compliance and on compliance with
           laws, regulations, and the provisions of contracts or grant agreements,
           and related opinion on compliance of major programs; and

       •   Schedule of Findings and Questioned Costs.

    OMB issues a Compliance Supplement (Supplement) annually. The Supplement
    assists the auditors in determining the audit scope for Circular A-133
    requirements for review of internal control. For each compliance requirement,
    the Supplement describes the objectives of internal control and certain
    characteristics that when present and operating effectively may ensure
    compliance with program requirements. The Supplement gives examples of the
    common characteristics for the five components of internal controls (control
    environment, risk assessment, control activities, information and



                                       11
              communication, and monitoring) for each compliance requirement. The
              following 14 compliance requirements applicable to the various Federal
              programs are identified in the Supplement:



     A.*          Activities Allowed/Unallowed
     B.*          Allowable Costs/Cost Principles
     C.*          Cash Management
     D.           Davis-Bacon Act
     E.           Eligibility
     F.*          Equipment and Real Property Management
     G.           Matching, Level of Effort, Earmarking
     H.*          Period of Availability of Federal Funds
     I.*          Procurement and Suspension and Debarment
     J.*          Program Income
     K.           Real Property Acquisition/Relocation Assistance
     L.*          Reporting
     M.           Subrecipient Monitoring
          ∗
     N.           Special Tests and Provisions




∗
    Compliance requirements applicable to CTC Research and Development program.



                                                      12
Appendix B. Report Distribution
Ms. Margaret A. DiVirgilio,                Administrative Contracting Officer
Executive Director and Treasurer           Ms. Nancy McCluskey
Concurrent Technologies Corporation        DCM Pittsburgh
100 CTC Lane                               1612 W.E. Moorehead Federal
Johnstown, Pennsylvania 15904-1935          Building
                                           1000 Liberty Avenue
Mr. Calvin Hackeman, Partner               Pittsburgh, PA 15222-4190
Grant Thornton, LLP
2070 Chain Bridge Rd.                      Assistant Inspector General for
Vienna, Virginia 22182-2536                 Auditing
                                           NASA Headquarters
Mr. Robert Eyer, Partner                   Code W
Wessel & Company                           300 E Street, SW
215 Main St.                               Washington, DC 20546-0001
Johnstown, Pennsylvania 15901
                                           Defense Advanced Research Projects
Director                                    Agency
Defense Contract Management Agency         Director, Contracts Management Office
Metro Park                                 Attn: Mr. R. Timothy Arnold
6350 Walker Lane, Suite 300                3701 N. Fairfax Drive
Alexandria, Virginia 22310-3241            Arlington, VA 22203-1714

Director                                   Department of the Air Force
Defense Contract Audit Agency              Office of the Assistant Secretary
8725 John J. Kingman Road,                  (Financial Management &
Suite 2353                                   Comptroller)
Fort Belvoir, Virginia 22060-6219          Attn: Director Audit Liaison
                                            (SAF/FMPF)
                                           1130 Air Force Pentagon, Room 4C228
                                           Washington, DC 20330-1130




                                      13
Naval Inspector General                       U.S. Department of Energy
ATTN: Captain Robert Jackson,                 Office of Inspector General
 Director                                     ATTN: Single Audit Contact
 Audit/Cost Management Division (N4)          1000 Independence Ave. SW
1014 N Street, SE--Suite 100                  IG-33, Rm 5A-193
Washington, DC 20374-5006                     Washington, DC 20585

Department of the Army                        National Single Audit Coordinator
Deputy Assistant Secretary of the Army        Office of Inspector General
 for Financial Operations                     Mid-Atlantic Audit Division
Financial and Accounting Oversight            U.S. Environmental Protection Agency
 Div.                                         3AI00
109 Army Pentagon, Room 3E572                 1650 Arch Street, 3rd Floor
Washington, DC 20310-0109                     Philadelphia, PA 19103-2029

Office of Executive Assistance                National Science Foundation
Management                                    Assistant Inspector General for Audit
U. S. Department of Commerce                  4201 Wilson Boulevard, Suite 1135
14th and Constitution Avenue NW               Arlington, VA 22230
Washington, DC 20230
                                              U.S. Postal Service
Office of Inspector General                   Assistant Inspector General for Audit
U.S. Department of Education                  1735 North Lynn Street
1919 Bryan St., Suite 2630                    Arlington, VA 22209-2005
Dallas, TX 75201-6817

Congressional Committees and Subcommittees, Chairman and Ranking Minority
Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform



                                         14
Review Team Members
This report was prepared by the Deputy Assistant Inspector General for Audit Policy
and Oversight, Office of the Assistant Inspector General for Auditing, DoD. Personnel
of the Office of the Inspector General, DoD, who contributed to the report are listed
below.


Wayne C. Berry
M. Thomas Heacock
Janet Stern
David H. Griffin
Ana King
Ashley Harris




                                       15
